HHS/OIG-Audit--"Follow-up Review on General Accounting Office Report, "More Hospital Costs Should Be Paid by Other Insurers", (A-14-92-00375)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up Review on General Accounting Office Report, More Hospital
Costs Should Be Paid by Other Insurers," (A-14-92-00375)
May 26, 1992
Complete Text of Report is available in PDF format
(1.29 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
In a prior report the General Accounting Office (GAO) made six recommendations
to improve identification of other forms of insurance that should pay for Medicare
beneficiaries' medical services before Medicare. Our follow-up review found
that HHS has taken appropriate action on five of the recommendations with which
it had agreed. Specifically, the Health Care Financing Administration (HCFA):
increased Medicare secondary payer (MSP) savings goals for intermediaries and
has increased the Contractor Performance Evaluation Program standards for MSP
performance; established the MSP outreach program to improve hospital performance
in primary payer billings; revised the Hospital Manual to require hospitals
to obtain complete information on beneficiaries' other insurance sources; revised
the regulations to extend the MSP provision of the law to all forms of no-fault
insurance coverage; and resubmitted its earlier legislative proposal to require
primary payers to notify HCFA about individuals who are enrolled in insurance
programs to which Medicare is a secondary payer and to notify the Secretary
about pending claims from Medicare beneficiaries.